✓■"“V

No.

J2J'
Supreme Court U.S.
FILED

FEB 0 4 2021

IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

vs.

PFTtfOJ. T POLZCS Of'fARl/d RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

A^/iurice

a/<?a/

(Your Name)

&/irnQS<?/} S-/y Ap\ A &
(Address)

"fffffJe/l-f- ! Off
(City, State, Zip Code)

JlF-£l£>~
(Phone Number)

QUESTION(S) PRESENTED

1. United States constitution is the supreme law governing this land correct?
2. All judges in every state is bound by oath or affirmation federal and state
level correct?
3. Michigan state constitution of 1963 requires their judges to support
Michigan and the U.S. constitution article 11, section 1 correct?
4. Article 4, section 23 is also part of Michigan state constitution of 1963 that
the judges of the state of Michigan and police officers must support
correct?
5. It is also required that judges in every state follow the court rules correct?
6. It is also right that if a person can find a case within their jurisdiction to
support their side of the argument, it can be used as case law or cited in
that manor correct?
7. MCL 752.11 is a state of Michigan law according to Michigan constitution of
1963 article 4, section 23 correct?
8. So if the constitution recognize MCL 752.11 and does not recognize all I
have been charged with creates a conflict between constitution and state
statues correct?
9. That means all my charges does not meet Michigan constitution of 1963
article 4, section 23 style of laws meaning every one of their state of
Michigan laws must bear proof by way it came into existences correct?
10. And if it is not meeting the requirements of the constitution then that is a
crime correct?
11. Both constitutions U.S. and the state where the action took or taken place
must be followed correct?
12. The court rules federal and state level must be honored and followed
correct?
13. If it is found that the judgements I have face is improper state of Ml laws. I
do have the right to get back what I have loss correct?

14. And all the judges whom have illegally held me accountable for violation of
—Mich. Law(s) will be charged for violating iheir oath or affirmation?
15. If the constitution does not allow a judge to give a decision other than to
reverse the action and that judge does not it is a personal decision they have
made correct?
16. That also means that is usurpation of power?
17. Also meaning that personal decision can cost that judge incarceration
correct?

ttST-OF-PARTIES

[ ] All parties appear in the caption of the case on the cover page.
IKl All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Officer Baxtresser Branden Dpt. #0349003, Officer Lach Ronald Dpt.
0349003, Officer Jones Loronzo. G Dpt. 0349062, Officer Lee Lester
Dpt. 0349010, Officer Vickers Daniel Dpt. 0349062, Officer Dinnan
Michael Dpt. 0349004. Judge Ford Deboran G. P-35273, Judge Bright,
Izetta F. P-29689, Judge Giles, Ronald P-38107

RELATED CASES
Mourice Neal Vs. Karen Fort Hood, et. al.
United States Supreme Court

Case No. 10-8610

Mourice Neal Vs. Detroit Police Department, et al., Case No. 15-12317
United Sfe&tes District Court Eastern District of Michigan Southern
Division
Mourice Neal Vs. Wayne County Treasurer In Re / • Case No. 18-7580
United States Supreme Court
I believe this to be Mourice Neal Vs. Michigan Department of
Correction, Case No. 10-14168, United States Court of Appeals

TABLEOF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2<6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

69

CONCLUSION

70

INDEX TO APPENDICES
APPENDIX A State of Michigan Court of Appeals

13

APPENDIX B-'36th District Court,OState of Michigan Register of
Action

16-63

APPENDIX C Michigan Supreme Court Order

68

APPENDIX D
APPENDIX E
APPENDIX F

iii

TABLE OF AUTHORITIES CITED
■PAGE NUMBER
'CASE'S
9
People V. Dettenthaler, 77 N.W. 450, 451, 118 Mich
595 (1898) 62 Swan V. Buck, 40 Miss. 268 (1866)
16-63
Register of actions

161595 Mich. Supreme Court

- -—

161595 Mich. Supreme
19361619 Landlord tenant 36 District court
161595 Mich. Supreme court
STATUTES AND RULES
28 U.S.C.S. /JEffT(a)
28 U.S.C.S
Const, and statutory provisions involved
Statement of the case
MCL 752.11
MCR 2.603 (A)(1), MCR
MCR 7.212 (C)
MCR 7.216 (A)(10)
MCR 2.603 (A)(1)
MCR 2.603 (A)$l)
OTHER
Register of actions
Notice of filing application
Case number 161595 Mich. Supreme Court
36th District court letter
Notice of filing application
Front of envelope
Letter reguesting default judgment
Cover letter
Mail change notice
Police report or incident
36th district case dismissal
Mail change notice
New identification card
-i-

65
70
74
79
PAGE NUMBER
2
3
4
5
10
14
14
15
70
PAGE NUMBER
16-63
64
65
67
68
69
70
71
72
73
74
75
76

TABLE OF AUTHORITIES CITED
PASH NUMBER

OTHER
Mail change notice
Proof of serMce

79
78

s-

/

3

.?

/

c

-ii-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
|><f For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A___ to the petition and is
[ ] reported at
; or,
IXf has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
appears at Appendix

A€&
___to the petition and is

[ ] reported at
; or,
has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____ _________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

|><C For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix <—■[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLED
United States Constitution and Michigan State constitution
■art ic-l-e—Hr;—s-ec l i on—hr 7 article 4, section 23.
All of the Register of actions
Mich. Const, of 1963 article 1, section 17.
MCLA 752.11

/

3

STATEMENT OF THE CASE

I Mourice Neal challenged the validity of the MCL'S charged against me on the
register of actions page's 16-63. These charge's conflict with the United states
constitution and Bill of rights and Michigan state constitution of 1963 dating back
as far as 1850, article 4, section 23 does not appear on the face of any of my
charges within Michigan jurisdiction. And according to article 11, section 1 the
police officer's and all judges are required to support both United States
constitution and Michigan state constitution. Looking at hard cover books only
you find MCL 752.11 having the enacting clause on its face. That gives that state
law its identity. Meaning it show by way that state law came into existence. Also
the only case to support my argument is (page 9). So upon review of all my case
within Mich. Const, jurisdiction usurpation of power, tyranny, and treason against
both United States constitution and Michigan state constitution of 1963 article
11, section 1.

4

REASONS FOR GRANTING THE PETITION

My reason is that I am a United States citizen whom have constitutional rights. No
different from any other citizen within its jurisdiction. Whom is looking for
protection against the act of usurpation of power, tyranny, and treason against
the constitution of the United States of America or Bill of Rights and the state of
Michigan constitution where all my actions have taking place. Let's not forget
Black History Month all of February aired for at less 80 years or more. I have faced
county time, incarcerated in Michigan department of correction. Plus property
taking, multiple vehicles taken, my children removed from home while in my care
as their father. Money as well taken and my daughter almost lost her life while in
the care of her mother. All of which is clear usurpation of power police officer's
arrest, and traffic tickets has to meet the requirement of the style of laws not law!
So I ask that my petition be granted for review please! I! Please keep in mind that
the highest state court are not persuaded to answer whether or not all of their
laws most meet Mich., Const., article 4, section 23 like I have shown so many time
with MCL 752.11 must view hard cover books. Thanks for the time taken!!!

A-

m

CONCLUSION

The petition for a writ of certiorari should be granted. In good faith because
Michigan supreme court is not persuaded that the question presented should be
reviewed by their court. That leaves only the highest court in country of United
States of America.

Respectfully submitted,

Date:

OS- JLQgi/

7t>

